           U.S. Department of
                                                    Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Audit Termination Notification—                    Date:    June 17, 2010
           Management of the Research Program
           National Highway Traffic Safety Administration
           Project No. 08M3010M000

  From:                                                                 Reply to
           Joseph W. Comé                                               Attn. of:   JA-40
           Assistant Inspector General
             for Highway and Transit Audits

    To:    National Highway Traffic Safety Administrator

           On August 22, 2008, the Office of Inspector General (OIG) announced its audit of
           the National Highway Traffic Safety Administration’s (NHTSA) management of
           its research program. The announced objectives were to determine whether
           NHTSA: (1) allocated research funds and selected projects based on their
           likelihood to reduce the number and severity of crashes or other targeting strategy;
           (2) systematically evaluated and disseminated project results to improve safety;
           and (3) used a risk-based internal control framework for its oversight of research
           contractors and grantees as a means to prevent fraud, waste, and abuse.

           We are terminating this audit because:
                • our audit scope was limited to the extent that financial and acquisitions
                  management data on research projects was incomplete and not supported by
                  a system of records and
                • congressional requests related to the Consumer Assistance to Recycle and
                  Save (CARS) program and the Office of Defects Investigation required us
                  to redeploy our resources.
           We recently briefed members of your senior staff on our observations and best
           practices to date for their consideration. We will notify you of any future audit of
           this area.

           We appreciate the courtesies and cooperation of NHTSA representatives during
           our audit. If you have any questions or need additional information regarding this
           cancelled audit, please contact me at (202) 366-5630 or Kerry R. Barras, Program
           Director, at (817) 978-3345.
                                                    #
